<html>
<title> - THE SPACE LEADERSHIP PRESERVATION ACT AND THE NEED FOR STABILITY AT NASA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                 THE SPACE LEADERSHIP PRESERVATION ACT
                   AND THE NEED FOR STABILITY AT NASA

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           February 25, 2016

                               __________

                           Serial No. 114-62

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov











                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-832 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          

















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois





















                            C O N T E N T S

                           February 25, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     6
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    12

Statement by Representative Brian Babin, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    22
    Written Statement............................................    24

                               Witnesses:

                                Panel I

The Honorable John Culberson (TX-7), U.S. House of 
  Representatives
    Oral Statement...............................................    14
    Written Statement............................................    18

                                Panel II

Dr. Michael Griffin, Former Administrator, NASA
    Oral Statement...............................................    27
    Written Statement............................................    29

Colonel Eileen Collins, USAF (Ret.); Commander, STS-93 and 114; 
  and Pilot, STS-63 and 94; and former Chair, Subcommittee on 
  Space Operations, NASA Advisory Council
    Oral Statement...............................................    34
    Written Statement............................................    36

Ms. Cristina Chaplain, Director, Acquisitions and Sourcing 
  Management, Government Accountability Office (GAO)
    Oral Statement...............................................    40
    Written Statement............................................    42
Discussion.......................................................    67

             Appendix I: Answers to Post-Hearing Questions

Dr. Michael Griffin, Former Administrator, NASA..................    92

Colonel Eileen Collins, USAF (Ret.); Commander, STS-93 and 114; 
  and Pilot, STS-63 and 94; and former Chair, Subcommittee on 
  Space Operations, NASA Advisory Council........................   102

Ms. Cristina Chaplain, Director, Acquisitions and Sourcing 
  Management, Government Accountability Office (GAO).............   106

 
                 THE SPACE LEADERSHIP PRESERVATION ACT
                   AND THE NEED FOR STABILITY AT NASA

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2016

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318, Rayburn House Office Building, Hon. Lamar Smith [Chairman 
of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. And without objection, the Chair 
is authorized to declare recesses of the Committee at any time.
    Welcome to today's hearing entitled ``The Space Leadership 
Preservation Act and the Need for Stability at NASA.''
    I'll recognize myself for an opening statement and then the 
Ranking Minority Member, Ms. Eddie Bernice Johnson from Texas.
    And let me say just looking out on the audience today I'm 
glad to see so much interest in this subject. And we have 
actually two panels today. We're going to start off with 
Congressman John Culberson, and then we'll go to a panel of 
three witnesses after that.
    Presidential transitions often have provided a challenge to 
NASA programs that require continuity and budget stability. But 
few have been as rocky as the Administration change we 
experienced seven years ago.
    Even before he was elected President, then-candidate Barack 
Obama planned to delay the Constellation program being built to 
take humans to deep space destinations. One of the Obama 
Administration's first acts, in fact, was to cancel this NASA 
program outright.
    These jarring decisions have been accompanied by repeated 
budget proposals that continue to cut key programs designed to 
take humans to deep space destinations like the Moon and Mars. 
The most recent proposal released just a few weeks ago would 
shrink the Space Launch System and Orion crew vehicle by more 
than $800 million. Even worse, the entire budget depends on 
make-believe budget gimmicks.
    This regrettable approach continues to make a Mars mission 
all but impossible. It is not the approach of an administration 
that is serious about maintaining America's leadership in 
space.
    The recent report from the National Academies of Science 
titled ``Pathways to Exploration: Rationales and Approaches for 
a U.S. Program of Human Space Exploration,'' stated that: ``The 
human spaceflight program in the United States had experienced 
considerable programmatic turbulence, with frequent and 
dramatic changes in program goals and mission plans in response 
to changes in national policies. The changes had a high cost in 
program resources and opportunities, and imposed what many 
feared was an intolerable burden on already-constrained human 
exploration budgets.''
    The Aerospace Safety Advisory Panel, an advisory body 
established by Congress to report to NASA and Congress on 
safety issues that affect NASA, stated in their recent report 
in January that ``NASA faces another challenge that has 
historically led to disruption and inefficiency and arguably 
has impact on safety and good systems engineering. This is the 
challenge of starting over with new programs and directions 
following administration change. As in prior reports, the ASAP 
urges constancy of purpose. Failing to stay the course with 
current programs of record will make it an even longer, 
costlier, and potentially less safe trip to Mars.''
    These facts are not lost on this committee. The most recent 
NASA Authorization Act from 2010 contains several provisions 
that remain the ``law of the land'' and continue to guide NASA 
activities.
    The Act notes that the ``commitment to human exploration 
goals is essential for providing the necessary long-term focus 
and programmatic consistency and robustness of the United 
States civilian space program.''
    The Act states that ``It is in the United States' national 
interest to maintain a government-operated space transportation 
system for crew and cargo delivery to space.''
    The Act directs that ``The United States must develop as 
rapidly as possible replacement vehicles capable of providing 
both human and cargo launch capability to low-Earth orbit and 
to destinations beyond low-Earth orbit.''
    The 2005, 2008, and 2010 NASA Authorization Acts are 
consistent in their direction to NASA. NASA needs the same 
certainty from the executive branch that it receives from 
Congress. Today, we are discussing how to provide that 
stability to NASA once again as we look toward a presidential 
transition in less than a year.
    My friend and Texas colleague, Representative John 
Culberson, has a bill that seeks to do just that. I thank 
Representative Culberson for his leadership on this issue, and 
I am a cosponsor of his legislation. We share the goal of 
providing NASA with long-term, consistent support, and it is 
great to have him here today to discuss his bill.
    One of the first hearings that this committee held during 
my chairmanship was, in fact, on this very topic.
    I look forward to hearing from our witnesses today how we 
can ensure stability in our space program through the next 
presidential transition.
    Dr. Michael Griffin provides a unique perspective as the 
last NASA Administrator to serve before a presidential 
transition. Colonel Eileen Collins not only has served as a 
pilot and commander of space shuttle missions, but also as a 
member of the NASA Advisory Council during the last transition. 
And Ms. Cristina Chaplain brings the Government Accountability 
Office's insightful perspective.
    We look forward to hearing their testimony and learning how 
we can ensure that NASA remains on the forefront of space 
exploration through the next presidential transition.
    [The prepared statement of Chairman Smith follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning. I'd like to start by welcoming our witnesses.
     NASA is a cornerstone of our nation's R&D enterprise, a 
source of inspiration to our young people, and a worldwide 
symbol of America's technological prowess and dedication to the 
peaceful exploration of space. We want it to succeed.
    Today's hearing is entitled ``The Space Leadership 
Preservation Act and the Need for Stability at NASA.'' While I 
have concerns about the legislation itself, I wholeheartedly 
agree with the premise that we want to preserve America's 
leadership in space, and that NASA will need stability if it is 
to maintain that leadership role. I am heartened that Chairman 
Culberson has long felt the same way.
    That said, I regret that the legislation being discussed 
today, while obviously well-intentioned, unfortunately is not 
likely to fix the fundamental causes of instability at NASA. 
Let me give just a few examples of my concern with what the 
bill does and doesn't do.
    First, the bill would establish a Board of Directors 
apparently modeled after the National Science Foundation's 
National Science Board. Of course, NSF and NASA are quite 
different agencies with quite different missions. So the 
applicability of the NSF model to NASA is unclear.
    But there are other differences that also need to be noted. 
As we know, the members of the NSB are all nominated by the 
President. The Board of Directors established in this bill, on 
the other hand, would have a majority of its members named by 
Congress using a formula that injects partisan politics into a 
board that ostensibly is supposed to insulate NASA from 
politics.
    In addition, the Board would be tasked with preparing the 
budget for NASA in parallel with NASA's own budget preparations 
process. This seems to be a prescription for wasteful 
duplication at best, with the potential for serious confusion 
and instability as the more likely outcomes.
    It is unclear to me how this small group of individuals 
with no agency management responsibilities or accountability is 
supposed to develop a detailed budget for a $19 billion agency 
without having to set up an unwieldy competing administrative 
infrastructure of its own. This is an approach that will not 
lead to a good outcome.
    Instead, we should let the dedicated men and women at NASA 
who are tasked with carrying out NASA's challenging programs be 
the ones to develop its budget requests. It should not be done 
by a group of individuals who, though may be talented, will not 
have any accountability for delivering results under the budget 
they may propose. If we're concerned that OMB is adjusting 
NASA's budget request in unhealthy ways, then we in Congress 
already have sufficient oversight and budgetary tools at our 
disposal to correct that situation.
    Next, the bill would establish a fixed ten-year term for 
the NASA Administrator. I frankly don't know what problem this 
provision is intended to correct. A mission agency benefits 
from having an administrator chosen by the President or she--
that he or she serves. Having a carryover administrator from a 
previous President's term will do nothing to ensure stability 
if the President wishes to pursue a different policy agenda 
from his or her predecessor and doesn't see the Administrator 
as being part of his or her team.
    In addition, as history shows, having a fixed term for an 
agency head means little in practice. Only 5 of the last 15 NSF 
Directors served out a full six-year term, and similar 
instability has been the norm for FAA despite the five-year 
term for its Administrators.
    I could go on, but the reality is that we don't need to set 
up a new bureaucracy outside of NASA or alter the appointment 
process for its leaders. If we're interested in ensuring 
stability at NASA, it is already in our power as Congress to do 
so. We are the ones who ultimately determine NASA's budget. We 
can provide the necessary budgetary stability to NASA or we can 
destabilize it with appropriation delays, continuing 
resolutions, and shutdowns. The choice is ours. It's right here 
in this Committee.
    In addition, we have the ability to set a stable direction 
for NASA, and we did just that in the 2015 NASA reauthorization 
bill that passed the House. We see that Mars should be the goal 
of our human exploration program. The President has agreed, 
though that was determined before he became President. We 
should take that consensus and build on it rather than having 
an unelected board put forth its own exploration vision every 
four years.
    The two Congressional actions that I have just described, 
one budgetary and one policy-oriented, will do more to maintain 
space leadership and ensure stability at NASA than anything we 
might do in this bill that we are discussing today.
    So in closing, I again want to welcome our witnesses. I 
appreciate your service, and I look forward to your testimony. 
Mr. Chairman, I yield back.
    [The prepared statement of Ms. Johnson follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
   
    Chairman Smith. Thank you, Ms. Johnson.
    Our witness on the first panel today is Hon. John 
Culberson, Chairman of the House Appropriations Subcommittee on 
Commerce, Justice, and Science.
    Congressman Culberson represents the 7th District of Texas, 
a district formerly represented by President George H.W. Bush. 
A longtime space enthusiast, Chairman Culberson is the sponsor 
of H.R. 2093, the Space Leadership Reservation Act of 2015. We 
thank him for being here this morning and look forward to 
hearing about his bill.
    And the gentleman is recognized for five minutes. John, 
make sure your mike is on there.

            TESTIMONY OF HON. JOHN CULBERSON (TX-7),

                 U.S. HOUSE OF REPRESENTATIVES

    Mr. Culberson. Thank you.
    Chairman Smith. Okay.
    Mr. Culberson. I want to thank you, Chairman Smith and 
Ranking Member Johnson, forholding this hearing today to review 
the Space Leadership Preservation Act of 2015. I also want to 
thank your staff, particularly Chris Shank and Tom Hammond, for 
working with me and my staff on this important legislation.
    Chairman Smith, thank you for supporting this bill as an 
original cosponsor. I'm deeply grateful for your confidence and 
support on this important matter. And I also want to thank your 
fellow Committee Members, Representatives Sensenbrenner, Posey, 
and Bridenstine, for their support as cosponsors.
    I especially want to thank my predecessor Congressman Frank 
Wolf, who chaired the Commerce, Justice, Science Committee, in 
helped me develop this legislation originally because Frank 
saw, as I have, as all of you have, that we simply have to give 
NASA greater stability. We need to make this agency less 
political, more professional, and give them the ability to see 
far into the future with the knowledge and with the confidence 
that the Congress will be there behind them.
    I have some of my very best memories as a boy growing up in 
Houston. I've been to the space program. All my earliest heroes 
were the Apollo astronauts. I got my first telescope for 
Christmas when I was 12. I've had one ever since, bought myself 
a rather large telescope as a high school graduation present. 
These men and women have been heroes to all Americans.
    And when I was assigned to the Appropriations Committee, I 
asked but one thing. I wanted to be--to serve on the Commerce, 
Justice, Science Committee and one day be there to share it. 
And it's an extraordinary privilege for me to work with you, 
Mr. Chairman, Ranking Member Johnson, all the Members of this 
Committee, as we do our best arm-in-arm in--to make sure that 
NASA has the funding, the support that they need to do all 
that's on their plate.
    In the appropriations bill that the Congress just 
approved--I made certain that NASA has today the largest 
appropriation that they have ever received since the agency was 
created in 1958, and I will continue to make sure that NASA has 
the resources they need to accomplish all that is before them. 
And that again is a year-to-year effort. That is again 
something that tends to be reliant too much on who is in the 
White House and who holds the chairmanships of these important 
subcommittees.
    I also want to be sure to thank my counterpart in the 
Senate, Senator Richard Shelby, who chairs the Senate Commerce, 
Justice, Science Committee. He's an ardent supporter of the 
space program, and it's been absolutely vital to have him there 
for his support.
    You know, although it's been over 44 years since any human 
has set foot on the surface of another celestial body, when 
Gene Cernan, my constituent and good friend, and Harrison 
Schmitt left the moon after three days exploring the Taurus-
Littrow lunar valley, mission control in Houston read a 
statement from the White House to the Apollo 17 astronauts that 
said, ``As the Challenger leaves the surface of the moon, we 
are conscious not of what we leave behind but of what lies 
before us.'' But today, the glory days of the Apollo program 
seem to be behind us, and the country seems to have lost focus 
on exploring what lies before us, or all the wonder that would 
be, as Tennyson said so well.
    The team at NASA unfortunately has faced program 
cancellation after program cancellation. And as Mike Griffin 
points out so correctly in his testimony you'll hear in a 
moment--Dr. Griffin points out, ``As the year 2009 opened, we 
had a plan for our nation's space program, a plan of 
generational scope for what it was that NASA expected to do.'' 
But by early 2010, barely a year later, this carefully hewn 
strategy that had been approved twice by Congress in two 
successive authorization acts of 2005 and 2008, Dr. Griffin 
points out, had been abandoned and cancelled.
    And I have a chart here that I'll make sure each one of you 
have a copy of that.
    [Slide.]
    Mike Coats, the Director at the Johnson Space Center first 
pointed out to me that this is the fundamental problem at NASA, 
that in the last 20 years, NASA has spent more than $20 billion 
on cancelled development programs. No entity, no company, no 
entity, no agency of the federal government, no agency of any 
state government or local government can function in this 
environment. And think of the heartbreak.
    Brian Babin, my good friend and colleague from the east 
side of Houston, represents the Johnson Space Center. We all 
know the heartbreak that those great men and women, those 
brilliant engineers and scientists who have devoted their life 
to making the dreams of the future come true, to build these 
incredible machines, these great rockets and spacecraft, they 
pour their heart and soul into it only to have it yanked out 
from underneath them. That is very, very damaging to their 
morale and destructive to our program as a whole.
    This is not a partisan issue. Completely set politics 
aside. Now, forget who's in the White House, what party label. 
It's just intensely destructive, and we cannot continue. It's 
wasteful, damaging, and it damages our ability as a nation to 
preserve our leadership in space. And space is the high ground. 
I cannot imagine General Meade at Gettysburg abandoning Little 
Round Top, just giving it over. You do not surrender the high 
ground. And yet I'm very concerned that in the absence of 
stability, in the absence of giving NASA a greater level of 
professionalism and making them less political, that the 
country is going to wind up abandoning the high ground.
    There is no clear mission today, and we simply have to come 
up with a way to get the agency the ability to give us that 
vision, and with the guidance and support of Congress, make 
that come true.
    I had the chance, the honor recently to hear former Navy 
SEAL Robert O'Neill speak about his work in identifying and 
taking out Osama bin Laden, and one of the things that really 
stuck with me from Rob's remarks was he said that a lack of a 
clear mission hurts morale. That's true of all of us as human 
beings, and it's certainly true with the team at NASA. We can 
help fix that problem with this legislation.
    I have welcomed suggestions or ideas on how we can modify 
the legislation, but I put a lot of thought into this. With 
your help, Chairman Smith and Chairman Frank Wolf, we looked at 
the--some of the models in government that work well. The 
Director of the FBI, for example, has--that--the ten-year term 
for the Director of the FBI is serving very well. We know that 
the FBI is a pillar of integrity, and that Director does not 
think about politics or who the President is. They focus on 
enforcing the law and doing the right thing for the right 
reasons for the country.
    Whether it is the President, Ms. Johnson, or whether it's 
the Congress, your human nature being what we are, there's 
going to be politics either way. And the idea of the Board of 
Directors was to make sure that we had members from both 
parties recommending appointments to that board, who would have 
to then be submitted by the President to the Senate for 
confirmation, preserving the separation of powers and the 
Executive's role in making that appointment so there are no 
constitutional issues, and you also have both parties in both 
Houses of Congress having an impact on that Board of Directors.
    The idea of the budget being submitted directly to Congress 
is important because if--we don't all of us--none of us know 
exactly what NASA's best minds have recommended. They submit 
their budget to the Office of Management and Budget, and the 
budget that we get, Mr. Chairman, and the budget that I 
receive--the budget recommendation from the President is not 
really from NASA. It's from OMB. As a practical matter, we all 
know that OMB runs NASA today. The bureaucrats, the bean-
counters at OMB are the ones making the big decisions for our 
nation's space program. And it's just unacceptable.
    I'd like to know, as I know you would, an honest, accurate 
number. What do the best minds at NASA recommended to the 
Congress? What's necessary for you to achieve all that's before 
you? And that's the idea behind the direct budget submission, 
Ms. Johnson, that we would, as Members of Congress, receive 
budget submissions from the Board of Directors at NASA. We 
would also get OMB's recommendation. Then we can lay them down 
side by side and see what is necessary to make those dreams of 
the future come true and balance them and figure out what is 
necessary for American taxpayers to fund that recommendation.
    That longer term for the Administrator, I think, is not 
only necessary for stability to make the agency head less 
political, but to give that individual the time to make sure 
that these tremendously complicated and expensive spaceflight 
programs come to fruition so we don't see this start and stop, 
as you see on this chart right here.
    [Slide.]
    Finally, Mr. Chairman, I really think that from my 
experience working in the Congress, I started out here on this 
Committee, and then when I went to the Appropriations Committee 
and was able to see, as you have, the extraordinary men and 
women at NASA who are so dedicated to make sure that the 
American space program is the best on earth, who are so 
dedicated to make sure that the spacecraft and the rockets they 
build are truly the best that have ever been conceived or built 
by human hands.
    I keep coming back to the fundamental problem. The cause of 
the instability is governance. We could continue to fund NASA. 
We can continue down this path of year-to-year pillar-to-post 
funding, or we could make fundamental long-term changes that 
our successors will inherit an agency that is less political, 
more professional, more stable, more focused on making the 
dreams of the future come true, more focused on achieving the 
goals of the Decadal Survey.
    Quite frankly, I wish one thing that you could add, I'd 
like to figure out a way to have a human spaceflight Decadal 
Survey. The scientists at the National Academy of Sciences do a 
great job when they prepare the Decadal Survey for 
astrophysics, for earth sciences, for heliophysics, for 
planetary science. And you'll see in my CJS bill I wired in 
there that NASA shall follow the recommendations of the Decadal 
Survey as they prepare what is necessary for missions in the 
future, and I made certain they got the money to do it.
    But what I can't figure out and resolve is how do you have 
a Decadal Survey for human spaceflight without having all those 
conflicting passions from the different contractors that are 
involved? That's a challenge that I'd ask for the help of the 
Science Committee in resolving.
    But it is governance. It all circles back to governance. 
And if we want to ensure that America maintains its leadership 
role in outer space, if we want to make sure that we are 
protecting the high ground and that our children and 
grandchildren will live to see interstellar flight, that 
they'll live to see the discovery of life on other worlds, I 
encourage you, urge you to join me in passing this legislation 
and modifying it. Make it better, and help us find a way to 
give NASA the stability that they need at headquarters, again, 
to make those dreams of the future come true.
    And I thank you very much for having me here today.
    [The prepared statement of Mr. Culberson follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
   
    
    Chairman Smith. Chairman Culberson, thank you for the 
comments about your bill and also thank you for all you have 
done for NASA over the years and into the future as well.
    You are welcome to join us up here if you'd like to, to 
listen to the next expert panel. And we're going to take a 
brief recess while the witness table is prepared for the next 
panel.
    Mr. Culberson. Thank you very much, Mr. Chairman.
    Chairman Smith. And while we're taking a recess, I 
understand that the gentleman from Texas, Mr. Babin, the 
Chairman of the Space Subcommittee, is recognized for an 
opening statement if he'd like to make one.
    Mr. Babin. Thank you, Mr. Chairman.
    Good morning. It's a great pleasure to be here this morning 
with our esteemed colleague and our first witness, as we just 
heard, Chairman John Culberson.
    And I represent the 36th District of Texas, which is the 
home of the Johnson Space Center. I've had the privilege of 
visiting JSC on a number of occasions. Every time I stop by 
there, I am reminded of the truly extraordinary accomplishments 
that we have made as a nation. I am also inspired by the 
potential that exists at NASA to continue expanding our 
horizons deeper into space. It's truly an awe-inspiring mission 
that is pursued with dedication by NASA's personnel and its 
contractors.
    Space exploration and science captures the American 
people's interests, it inspires us to pursue extraordinary 
goals, and keeps us on the forefront of scientific achievement. 
It is a challenging endeavor that distinguishes the United 
States as a global leader. It supports innovation and economic 
growth, and inspires the next generation to build, explore, and 
discover.
    The missions of NASA that we should be focused on are 
complex, they are expensive, and they are long term. 
Unfortunately, the last eight years have been characterized by 
turmoil, and by upheaval and uncertainty. If there's anything 
that we have learned from this experience, it is that our 
national space program can ill-afford to change our program of 
record every time that there is a new President. Space 
exploration requires stability and unwavering dedication.
    Chairman Culberson, a strong supporter and good friend of 
our nation's space program, has been vocal, as you heard this 
morning, about how the billions of dollars have been dedicated, 
directed, and redirected over the years with fits and starts of 
various NASA projects. Your pursuit of a solution to this 
challenge, Representative Culberson, is greatly appreciated by 
me and many of our colleagues.
    Space exploration is a very worthwhile investment for the 
taxpayer and for the Nation. It inspires the next generation of 
explorers to pursue science, technology, engineering, and math; 
it advances U.S. soft power and international relations; it 
reinforces our aerospace industrial base; increases economic 
competitiveness; and advances our national security interests.
    There's a great deal of promise in the future of space, but 
if we fail to provide stability for NASA's space exploration 
programs, we may well lose our leadership in space. Make no 
mistake, other nations are nipping at our heels and we can ill-
afford to rest on our laurels. Losing U.S. leadership in space 
will significantly undermine our national interests, erode our 
industrial base, undermine our international influence, and 
cause the loss of a skilled workforce and will jeopardize our 
national security. Our colleague Bill Posey often says that the 
Chinese are going to the moon, and they're not going there just 
to collect rocks, and I couldn't agree more.
    Mr. Culberson's Space Leadership Preservation Act offers us 
an opportunity to review many of the challenges facing our 
nation's space agency. There may be many ways to achieve the 
goals of this legislation, and so I have an open mind. 
Presidential elections offer both challenges and opportunities, 
and that's why it is imperative that our colleagues in the 
Senate consider the bipartisan NASA Authorization Act that 
passes via unanimous consent over a year ago. They must bring 
this up. NASA would be well-served by the guidance that 
legislation provides. It would provide stability of purpose in 
an uncertain time. All that they would have to do is update the 
funding levels to match the recently passed Omnibus 
Appropriations levels for NASA.
    And I appreciate hearing the testimony of Representative 
Culberson and looking forward to hearing our other 
distinguished witnesses this morning, and I thank them for 
appearing here.
    And with that, I yield back, Mr. Chairman.
    [The prepared statement of Mr. Babin follows:]
  
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Chairman Smith. Thank you, Mr. Babin.
    We are awaiting the arrival of a Member of the Science 
Committee, the gentleman from Alabama, Mr. Brooks, who is going 
to introduce our first witness, Dr. Griffin. And while he is on 
the way, I'm going to proceed and introduce our other two 
witnesses today.
    And our second witness is Colonel Eileen Collins, Retired 
United States Air Force Colonel and former NASA astronaut and 
resident of my hometown San Antonio. Colonel Collins was 
selected by NASA to become an astronaut in 1991. In 1995, she 
flew the space shuttle as pilot aboard Discovery and then again 
as pilot in 1997 aboard Atlantis. Colonel Collins became the 
first woman commander of a U.S. spacecraft with shuttle mission 
Columbia in 1999. Her final spaceflight mission was as 
commander of Discovery in 2005, the Return to Flight mission. 
She has logged more than 6,750 hours in 30 different types of 
aircraft and more than 870 hours in space as a veteran of four 
spaceflights.
    Colonel Collins received her bachelor's degree in 
mathematics and economics from Syracuse University, her master 
of science degree in operations from Stanford University, and a 
master of arts degree in space systems management from Webster 
University.
    Our final witness is Ms. Cristina Chaplain, Director of 
Acquisitions and Sourcing Management at the U.S. Government 
Accountability Office. Ms. Chaplain has a responsibility of GAO 
assessments of military space acquisitions, NASA, and the 
Missile Defense Agency. Prior to her current position at GAO, 
she worked with GAO's Financial Management and Information 
Technology Team. She has been with GAO for 25 years. Ms. 
Chaplain received her bachelor's degree from Boston University 
and her master's degree from Columbia University.
    Okay. I'm sure that the gentleman from Alabama will be 
joining us shortly, but in his absence, I'm going to go on and 
introduce our first witness today. And that is Dr. Michael 
Griffin, former NASA Administrator and current Chairman and 
Chief Executive Officer of Schafer Corporation. Dr. Griffin 
served as both Chief Engineer and Associate Administrator for 
Exploration at NASA, as well as Deputy for Technology at the 
Strategic Defense Initiative Organization. Dr. Griffin is a 
recipient of numerous honors and awards, including the NASA 
Exceptional Achievement Medal and the Department Of Defense's 
distinguished Public Service Medal, the highest award which can 
be conferred on a nongovernment employee.
    Dr. Griffin received his bachelor's degree in physics from 
Johns Hopkins University and master's degrees in aerospace 
science from Catholic University, electrical engineering from 
the University of Southern California, applied physics from 
Johns Hopkins, civil engineering from George Washington 
University, and business administration from Loyola College of 
Maryland. By my count, that's five master's degrees. And his 
Ph.D. is in aerospace engineering from the University of 
Maryland.
    We welcome you, all three of you, to the hearing today.
    And the gentleman from Alabama has arrived, but I still 
want to recognize him. Even though I just finished introducing 
Dr. Griffin, I know that the gentleman from Alabama, Mr. 
Brooks, will have some comments to make as well. And he is 
recognized for that purpose.
    Mr. Brooks. I'm sorry, Mr. Chairman. This is my third 
hearing since 9:30.
    From what I understand, you've already introduced----
    Chairman Smith. I just----
    Mr. Brooks. --Dr. Griffin.
    Chairman Smith. I just finished, but I'd like to recognize 
you to make any additional comments you'd like to make.
    Well, Dr. Griffin, thank you for being here. Roll Tide and 
War Eagle. I'll make it short.
    Chairman Smith. In that case, we will proceed, and, Dr. 
Griffin, you're welcome to start your testimony.

               TESTIMONY OF DR. MICHAEL GRIFFIN,

                   FORMER ADMINISTRATOR, NASA

    Mr. Griffin. Thank you, Chairman Smith, Chairman Culberson, 
Mr. Brooks, for the kind introduction and recognition. I'm--and 
thanking Ranking Member Johnson and Members of the Committee 
for appearing here today and allowing me to appear to discuss 
the future of our nation's space program.
    With the inauguration of a new Administration and Congress, 
we will have both the need and the opportunity to restore 
American preeminence in space, and after that, to ensure 
stability in the policy and programs we create. We should begin 
now, and in that context, it may be of some value to review 
some of our recent history. Some of that has been summarized by 
Chairman Culberson in the earlier panel, and I will not repeat 
it.
    I will make the point that, following the loss of Space 
Shuttle Columbia, the Columbia Accident Investigation Board 
identified as one of the root causes of that failure the lack 
of a clearly identifiable long-term strategic plan for NASA. As 
has been stated, by 2009 that issue had been remedied, and we 
were executing a powerful and compelling new plan. That plan 
respected the need to complete existing commitments, the 
constraints imposed by the geography of the solar system, and 
the existing state of our technology and operational 
experience. The plan respected the need of our international 
partners for a roadmap for human spaceflight beyond the 
International Space Station, while offering critical challenges 
to which they could make critical contributions. Finally, being 
achievable with only incremental real dollar budget growth, it 
respected realistic budget constraints. It was a good plan.
    This strategy received nearly unanimous bipartisan 
endorsement by successive Congresses, Republican and 
Democratic, in the NASA Authorization Acts of 2005 and 2008, 
clearing the path for a period of unimpeded progress. And by 
early 2009, the shuttle was flying regularly, the ISS was 
nearing completion, a new crew transportation system was in 
work, and the first two contracts for commercial cargo delivery 
to the International Space Station had been signed. Some 14 
nations had embraced partnership with the United States to 
return to the moon and were orienting their own national space 
policies to that end.
    But by early 2010, just a year later, this strategy was in 
disarray. Human lunar return had been abandoned, as had NASA's 
development of a new crew transportation system. There was no 
plan beyond ISS save for a nebulous commitment to visit an 
asteroid sometime in the 2020s. Inasmuch as this--such a 
mission is inherently a one-off exercise with limited 
opportunities for international involvement, our existing space 
station partners rightly felt abandoned and potential new 
partners saw very little merit in working with the United 
States.
    The nations that were eager to participate in space 
exploration in 2009 still wish to do so today, but a leader is 
needed for such an endeavor, and for now, the only possible 
leader is the United States. If we do not choose to engage, 
then eventually other nations will, and we're unlikely to be 
pleased with that result. This is not a future that the United 
States should allow to come to pass.
    Our space policy is bankrupt. While I certainly support the 
stability for NASA that is the topic of this hearing today, I 
would not want that desire to prevent us from correcting the 
problems that have been created over the last seven years. To 
quote my friend and colleague Jim Albaugh, the former Boeing 
commercial aircraft CEO, the current Administration's plan for 
space offers ``no dream, no vision, no plan, no budget, and no 
remorse.'' We can fix this and we must.
    Thank you. I would be happy to answer any of your 
questions.
    [The prepared statement of Mr. Griffin follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
    Chairman Smith. Thank you, Dr. Griffin.
    Colonel Collins.

       TESTIMONY OF COLONEL EILEEN COLLINS, USAF (RET.);

      COMMANDER, STS-93 AND 114; AND PILOT, STS-63 AND 94;

      AND FORMER CHAIR, SUBCOMMITTEE ON SPACE OPERATIONS,

                     NASA ADVISORY COUNCIL

    Ms. Collins. Thank you, Chairman Smith and Ranking Member 
Johnson and Committee Members. It is a pleasure for me to be 
here today to talk about the future of our great country and to 
share my perspective as a former space shuttle commander. I 
have a passion for exploration, and I'm firmly committed to the 
future successes of our country's space program.
    A few words about my background, I'm a former Air Force 
test pilot, a graduate of the Air Force Test Pilot School, and 
a veteran of four spaceflights. I served for five years on the 
NASA Advisory Council from 2007 to 2011. I currently serve on 
the National Academy of Sciences' Aerospace Science and 
Engineering Board, and although I serve on this and many other 
boards and advisory panels, I want to say that I'm here today 
representing myself and not any of these other panels.
    So in my opening comments I have three general points. The 
first one is I want to thank you for asking the opinion of the 
operators of our space systems or the guys in the trenches so 
to speak. I hope I can give you an operational perspective from 
the astronaut's point of view.
    Secondly, I can't emphasize enough the love that Americans 
have for our space program. As a speaker and as an advisor, I 
routinely meet people from all around the United States. They 
are inspired by human spaceflight and they are very excited 
about scientific discoveries. They see the space program as a 
bright future, where we can imagine possibilities both human 
and technical.
    And frankly, the brand of NASA is easy to love. For 
example, my story began in 4th grade when I read a magazine 
article about the Gemini astronauts. Since then, I've wanted to 
fly in space and be part of this great adventure. It led me to 
study of mathematics and a career in flying.
    Today, I see people of all ages light up when the subject 
of space travel is discussed. In my opinion, the history of 
American exploration is right up there with baseball, apple 
pie, and the Fourth of July. And I might add that the recent 
announcement for new astronauts brought a record number of 
applicants, 18,300 applicants, which is more than twice as many 
as the previous record.
    Now, my third point concerns the purpose and stability of 
the human spaceflight program. Obviously, the success of any 
decades-long program is related to the long-term commitment 
from the top. So first, a mission is defined. Next, a strategy 
is set. And then, an operational plan is written. Now, that 
operational plan includes a test plan, and a test plan includes 
a build-up approach. This is one of the fundamentals that we 
learn when we go--and that we teach when we go through the test 
pilot schools.
    As we run a test program, occasionally, technical changes 
will need to be made because we learn as we go. Sometimes, we 
make mistakes when we do things for the first time. But 
necessary technical changes will not affect the originally 
defined mission. That must stay stable so that the team members 
can stay focused on the mission.
    I understand the long-range vision for U.S. human--for the 
U.S. human spaceflight program is landing a human on Mars. I 
support that mission. And I sincerely hope that that first 
person is an American. We can do it, and frankly, we can afford 
it. Those who say we can't are just putting their priorities 
elsewhere.
    When asked about how to best prepare for a successful Mars 
mission, as a crewmember, I certainly would like to see the 
hardware tested on the moon's surface first. This is part of a 
test plan's build-up approach. Policy leaders are asking 
astronauts to risk their lives on space journeys, and it is our 
experience that testing in similar environments like the moon 
will minimize risk.
    When the Constellation program was cancelled in 2010, some 
people said, ``why go back to the moon? We've already been 
there.'' Imagine the year 1806, when Lewis and Clark returned 
from their 2-1/2 year journey of exploring the western 
continent. They and their team members are declared national 
heroes. But then no one else goes back because we had already 
been there. Of course, this is almost inconceivable. It would 
diminish the entire reason for going in the first place.
    I was a member of the NASA Advisory Council when 
Constellation was cancelled. I was shocked, as were my 
colleagues, first, because it was so unexpected, and second, 
because the timing, so close to the end of the space shuttle 
program, left NASA with no options.
    The legislation that we're discussing here today has ideas 
that will certainly address this problem. I'm not wedded to any 
specific proposal myself, but the problem does need to be 
addressed, especially given the billions of dollars wasted as a 
result and the lost time and motivations of engineers and 
astronauts.
    I believe program cancellation decisions that are made by 
bureaucracies, behind closed doors, without input by the 
people, are divisive, damaging, cowardly, and many times more 
expensive in the long run. As a shuttle commander, I would 
never make a huge decision without input from all the experts, 
even the ones I do not agree with.
    So what will keep us from having surprises like this set us 
back years? A continuity of purpose over many years and 
political administrations. I know there are ways to do this 
through policy, organizational structure, and strong 
leadership. And finally, strategic stability will give the 
teams efficiency and a focus that we saw in the Apollo program. 
Apollo happened by the end of the decade because people knew 
exactly what the mission was and when it should happen. They 
believed in it. And of course it was properly funded. There was 
not much division over what the mission was, and NASA was given 
the responsibility to figure out how to do it, and the result 
was dedication, passion, and success. And I know we can do this 
again. Thank you.
    [The prepared statement of Ms. Collins follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    
    Chairman Smith. Thank you, Colonel Collins.
    And, Ms. Chaplain.

         STATEMENT OF MS. CRISTINA CHAPLAIN, DIRECTOR,

             ACQUISITIONS AND SOURCING MANAGEMENT,

             GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Ms. Chaplain. Chairman Smith, Ranking Member Johnson, and 
Members of the Committee, thank you for inviting me to discuss 
the Space Leadership Preservation Act. You've heard the policy 
and strategic perspective, as well as the operational 
perspective, and I'm here today to discuss the acquisition 
management perspective.
    As you know, NASA's acquisition management has been on 
GAO's high-risk list for more than two decades because of 
persistent cost growth and schedule slippage. In recent years, 
however, NASA has made progress in reducing this risk. 
Specifically, in 2012, shortly after NASA re-baselined its 
largest project, the James Webb telescope, development cost 
growth averaged about 46 percent. This year, we plan to report 
that it is at 17 percent. And when James Webb is excluded, cost 
growth is just 1.3 percent, though that number is affected by 
the addition of Space Launch System and Orion to the portfolio.
    NASA has made positive changes in the past five years that 
have helped contribute to the improved performance of its 
projects. These include better cost and schedule estimating, 
use of management reserves, and program monitoring. Moreover, 
many projects are able to demonstrate that they have closed 
gaps in knowledge about technology and design at key junctures 
in their development process.
    This does not mean NASA's acquisition problems are solved. 
Several projects in the portfolio are experiencing significant 
problems that are not just the result of inherent technical 
risk. Programs still struggle with underestimating complexity 
and managing and overseeing contractors. Moreover, the most 
complex and costly development efforts, the human spaceflight 
projects and James Webb, are entering their most risky phases 
of development. Before we can take NASA off our high-risk list, 
we need to see how these projects perform in times when they 
are most tested.
    Further, while initial estimates are more realistic, we are 
finding larger projects do not plan to update their estimates 
on a regular basis and that estimates are not always well 
supported by well-defined schedules. The baselines for human 
spaceflight projects also provide little visibility into long-
term planning and costs.
    Today, this Committee is discussing the concern that NASA 
needs more stability in order to truly thrive. That is what the 
Space Leadership Preservation Act is focused on. The concept of 
stability is an important one for NASA since projects require 
heavy investments both in terms of time and money, and they 
require the cooperation and support from a variety of 
communities.
    We have not assessed the extent to which the act can 
insulate NASA from instability, but I do have a couple 
observations. First, if NASA were to implement a Board of 
Directors, that board must be willing to hold program managers 
accountable, as well as leadership, by cancelling or 
restructuring programs that do not perform well. I recognize 
there is a frustration that shuttle successor programs never 
seem to make it very far, and it's clear that these programs 
are impacted by politics. On the other hand, when projects 
prove to be too ambitious or poorly managed, not cancelling 
them or not changing them can be damaging to the rest of NASA's 
portfolio.
    Second, the act emphasizes the use of longer-term or 
multiyear contracts. Multiyear contracts can potentially save 
money and improve the industrial base by permitting more 
efficient use of the contractor's resources. It's important to 
keep in mind, however, that they are generally used for more 
production items and low-risk technology. Not too many NASA 
projects fit this description. Multiyear contracts can also 
reduce Congress's flexibility, as well as the agency's 
flexibility in making changes to programs and budgets, so the 
decision to use them needs to be carefully considered.
    Finally, as you assess these measures, I would like to 
emphasize that our examinations of complex acquisitions across 
the government continually show that acquisition success hinges 
on 1) having robust long-term plans to guide programs; 2) 
having a sound business case when starting a program; 3) 
providing the right support and oversight throughout the life 
of the program.
    We look forward to continuing to work with NASA and the 
Committee in instituting these improvements.
    Thank you. I'm happy to answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Chairman Smith. Okay. Thank you, Ms. Chaplain, and thank 
you all for your testimony today. I appreciate your candor and 
directness both.
    Dr. Griffin, let me address my first question to you, and 
actually this is a question from Chairman Culberson, and that 
is, how would you design a process to create a human 
spaceflight Decadal Survey?
    Mr. Griffin. Such a question reminds me of a rye joke among 
engineers about the dangers of doing math in public. With that 
in mind, I think I might offer some broad comments----
    Chairman Smith. Okay.
    Mr. Griffin. --but--and I would be more than willing to 
discuss the question offline----
    Chairman Smith. Okay.
    Mr. Griffin. --with Committee and staff. But the details 
are probably not best hammered out here. I would say broadly 
that, in order to craft a plan of decadal scope, a process much 
like what science does in their various disciplines would be 
helpful. One would have to gather together recognized experts 
in human spaceflight ranging from operators to, in point of 
fact, philosophers. Why are we doing this in the first place? 
These were the kinds of questions that were addressed in the 
period following the loss of Columbia and that did allow us to 
come up with what I thought was a plan, a quality plan of 
decadal scope.
    Chairman Smith. Okay.
    Mr. Griffin. The key to such a plan is having as many 
knowledgeable stakeholders as possible contributing to it, 
having it done in the open, and then having the opportunity to 
discuss it and debate it when it's done rather than having it, 
as Colonel Collins suggested, foisted upon us as a surprise.
    Chairman Smith. Okay. Thank you, Dr. Griffin. We'll look 
forward to a further discussion----
    Mr. Griffin. All right.
    Chairman Smith. --on the subject with you as well.
    Mr. Griffin. I would as well, sir. Thank you.
    Chairman Smith. Great. Colonel Collins, does NASA have a 
set of clearly defined strategic goals and objectives? And if 
not, what should those goals and objectives be?
    Ms. Collins. Yes, thank you for the question. I think it 
depends on your perspective because some say yes and some say 
no, so I think at the top NASA does have a final goal of 
landing a crew on Mars approximately 2030, 2033. But how you 
get there is where there is maybe disagreement or some 
confusion possibly on how we're going to do that because the 
mission has changed and NASA has defined the roadmaps and they 
are in those National Academy of Sciences' studies that have 
been published, one in 2012 and one in 2014.
    We go there by using the moon as a testbed or by visiting 
an asteroid, and I realize the asteroid mission has changed 
several times. It was originally astronauts would visit an 
asteroid and work there, and as time went on, the asteroid got 
smaller. It was difficult to find the right asteroid. One of 
the problems is these asteroids are moving around in space so 
they're not always where you think they're supposed to be. You 
have to project where it's going to be in the future, and then 
if your mission delays, that's going to change some of the 
planning and possibly may even change the destination to a 
different asteroid. And of course all these asteroids are 
different and they have different makeups, different sizes.
    So NASA then decided to capture an asteroid and bring it to 
the lunar space, do that robotically, and then have astronauts 
visit. So that mission has changed because, as we go along, we 
find that there's technical difficulties.
    So I see that that's where the disagreement is in the 
scientific and operational community as to how we should do 
that mission. Most people agree that we need to go to Mars. The 
problem is how do we get there?
    Chairman Smith. Thank you, Colonel Collins.
    And, Ms. Chaplain, what are your recommendations for how 
NASA should address their deficiency in their proposal to go to 
Mars?
    Ms. Chaplain. I think the long-term planning is very 
critical here, and they do definitely need a strategic plan 
that, again, lays out how they're going to get there, also what 
technologies you need to get there. There's many more systems 
and subsystems that are going to need to be developed for the 
eventual trip to Mars, and to also have cost estimates at least 
in ranges for the different kinds of choices that you can make. 
At this point, we only have cost estimates going up through the 
second fight for Orion and nothing after that. And for SLS we 
only have cost estimates going up through the first flight, so 
there's a lot of important questions ahead about how much is 
everything going to cost and what else do you need to get in 
order to get there.
    Chairman Smith. Okay. Thank you, Ms. Chaplain.
    The Ranking Member, the gentlewoman from Texas, Ms. 
Johnson, is recognized for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Ms. Chaplain, based on GAO's work on NASA, what are the top 
two issues that need to be addressed to ensure stability in 
NASA's programs over the long term and what should Congress do 
to address those? And would any of the other witnesses care to 
comment after you?
    Ms. Chaplain. So that's a good question. I think it speaks 
to the levels of discussion that we're having. One is a good 
strategic long-term plan that helps provide stability, and the 
plan itself, if it has agreement from a lot of different 
communities, you have a better chance of maintaining support 
over the decades that need to happen.
    But at the more tactical level, acquisition programs have 
to be well-managed, too, and Congress has done a lot for NASA 
in that regard by helping them get more transparency into costs 
and progress, instituting good metrics and project management 
tools. There's always more that can be done, especially in 
terms of holding programs accountable when they don't meet 
their goals and they don't have good plans for going forward. 
But I see the solution as being on both those levels.
    Ms. Johnson. Any other witnesses care to----
    Mr. Griffin. No, I don't need to comment further at this 
time. Thank you, ma'am.
    Ms. Johnson. Okay. Okay.
    Ms. Collins. The question was on the top two things that 
NASA could do? I think that--although I'm not a policy or 
budget expert, I think that there may be something in a 
multiyear funding that seems to make sense.
    And the other comment I have is on the Board of Directors 
that we had heard mentioned earlier today. I think the key 
thing about having a Board of Directors in adding stability is 
getting the right people on that board that are entirely 
independent. And I serve on several boards, and I think the key 
to having a board that works very well and very healthy is 
getting people that love the mission, have a passion for the 
mission, and are good listeners and can listen to all sides of 
the issue before they come in with their recommendation and 
their good governance. So I think that where there could be 
problems with that I think is something that's worthy of 
looking at.
    Ms. Johnson. Thank you. This Committee and Congress will be 
considering and deliberating on the budget--the President's 
fiscal year budget 2017 in the coming weeks. What in your view 
are the top three challenges for NASA over the next two years?
    Mr. Griffin. Ms. Johnson, I don't know that I would have a 
top three. I think the topic of this hearing today is a 
critical one. What should NASA be doing? What as a nation do we 
want to do with our civil space program? I personally have been 
very clear that I think the proper next step is a human lunar 
return. That will occupy us in the near term and allow us to 
cement the international partnerships that helped us to build 
the space station.
    Beyond that, we should be doing everything that we do in 
returning to the moon in such a way that it has maximum 
applicability toward going to Mars. As Colonel Collins has 
said, this is something the United States can do, and I believe 
it's something that we should do.
    And so if I get my top three, the third thing I would say 
is once these goals are locked in place by the legislature, I 
think we need a cultural change. Our program is not something 
which the Nation can afford to have be a playground for newly 
elected Presidents and unelected staff. The legislature is the 
proper repository of the long-term stability in these plans and 
programs that we need, and it needs to be enforced. Thank you, 
ma'am.
    Ms. Johnson. Thank you.
    Ms. Collins. I had a minute to think about the question. 
You asked about the top three important things for NASA. I 
would say first is most people know American astronauts right 
now have to go to Russia and train in Russia to get to our 
space station. So of course a very top issue is getting launch 
from our country's soil, our astronauts to our space station, 
which I understand is funded through 2024.
    The second I believe is heavy launch, obviously for our 
long-term space goals, and the third is getting the best 
people. We need to get the smartest people into NASA by going 
out and recruiting, and the best way to do that is having a 
mission that they believe in.
    Mr. Griffin. I'd like to echo my support for Eileen's 
comment that we need to restore American access to space as 
soon as possible. That might have been something I was assuming 
was a given, and I think I should state it explicitly. Thank 
you.
    Ms. Johnson. My time is expired, but I'd like you to 
comment if you could.
    Ms. Chaplain. So I'll be quick in light of that. To add to 
the conversation just to note that some of the largest programs 
will be entering their most difficult phases of development 
where we tend to see more cost growth and more problems. So 
getting through those couple of years and ensuring issues that 
happen on these huge programs don't affect and overwhelm the 
smaller programs that are equally important.
    Ms. Johnson. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you very much, Mr. Chairman, for 
scheduling the Space Leadership Preservation Act hearing. I 
thank all the panelists for appearing and for their wisdom and 
foresight that you've shared with us so far.
    You know, I've heard a lot of criticism from different 
directions about this proposed legislation, but I've not heard 
one single person propose an actual solution to the problem 
that we have of lack of programming and foresight and how we're 
going to get on track and stay on track and keep America's 
space program first.
    Mr. Chairman, I think you brushed over the beginning a 
litany of events that kind of throws us into instability even 
more. I mean, we have a candidate that runs for office that 
says if he's elected President, he's going to abolish NASA and 
put the money into education. Then, when he appears on the 
space coast, he says I'm going to close the gap between the 
shuttle in Constellation and keep America first in space. Then, 
he gets elected and he asks for the NASA Administrator's 
resignation, and he doesn't fill the position. So when they're 
doing their planning and strategic planning for the 
Administration's future, the NASA Administrator seat is empty. 
That's kind of a shame.
    So then we get a great NASA Administrator appointed, and 
then we have an Augustine Commission appointed--I may have 
these two out of order a little bit--to tell him what to do. 
And the Augustine Commission says, of course, the shuttle is 
terribly dangerous and needs to be scuttled.
    We all know better than that. We know they were designed 
for over 100 missions and they were only in the 35th mission, 
mile per mile the safest space travel of any kind in the 
history of mankind. And we know the catastrophes, the tragedies 
were human error. It wasn't any failure of NASA.
    And so then we go in a different direction and we have SLS 
and Orion now, which I think are great plans, great goals, but 
we have an Administration that frankly underfunds them. They 
suggest them, promote them, and then underfund them. So then 
NASA ends up being criticized that they can't keep up schedules 
that they'd foreseen before, and we know that when you delay 
projects and instability is going to cost increases, too.
    So, you know, you have to wonder if you are NASA or you're 
a NASA employee or a potential NASA employee or even just a 
bright STEM student or, like the 18,000 who applied to be 
astronauts, what is our future going to be? What is our future 
going to be? And I love Neil deGrasse Tyson when he says, you 
know, our investment in space is fundamentally basically the 
only thing our Congress does strictly for future generations, 
to benefit future generations.
    And so I think Congressman Culberson's bill is much too 
important to ignore not only for those reasons but for reasons 
of national security, our technological advancement, and 
eventually, the survival of our species.
    Now either Dr. Griffin and Colonel Collins, China is 
rapidly developing the capability to access and use all regions 
of cislunar space. If the United States cedes that and moon 
base sole use to China, what do you foresee as the strategic 
and long-term impacts on the national interest of our country?
    Mr. Griffin. Well, you mentioned me first, so I'll go 
first, Mr. Posey. Thank you. I have a couple comments on that. 
First of all, I think you can infer all that needs to be 
inferred about how the Chinese will behave in space by watching 
today how they are behaving in the Western Pacific and the 
concern that that causes not only the United States but all 
nations in that region. There is no reason to suppose that they 
would behave any differently in space, and I think that should 
give us concern.
    More broadly, since World War II, the United States has 
been a superpower and one certainly would say, I think, the 
superpower in the world. The world is a better place when that 
situation is so. I believe Western values and customs and 
respect for individual rights and the rule of law matter. If we 
want those cultural values to prevail upon in the new frontier 
that is space, then we will have to be there. The decisions are 
made by the people who show up, not by the people who watch on 
TV.
    For those reasons, which I believe are existential for our 
culture, we need to be in space first among equals irrespective 
of what China or any other nation seeks to do. Thank you.
    Mr. Posey. Thank you. Colonel?
    Ms. Collins. When the Apollo 11 crew landed on the moon, 
1969, they put a plaque that said, ``We came in peace for all 
mankind.'' I'm not sure China would put a plaque like that on 
the moon.
    I am concerned about China. I'm not an expert on China, so 
I'll get that in the record. But I'm not sure what their 
intentions are. And as Dr. Griffin said, we can only guess 
based on what they're doing now, what their performance is. We 
don't really cooperate with China in space although we 
cooperate with all other nations, and I believe in 
international cooperation. Whether or not we cooperate with the 
Chinese is a big question mark. It's just a little bit scary, 
and sometimes, part of me says competition is good in many 
ways, and if we ever end up in a race back to the moon against 
China, that might give us a little kick in the pants----
    Mr. Posey. Okay.
    Ms. Collins. --to get out there and do it, whether it's the 
moon or Mars or whatever we're doing in space.
    Mr. Posey. Okay. Thank you.
    Thank you for your indulgence, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Posey.
    The gentleman from Colorado, Mr. Perlmutter, is up next.
    Mr. Perlmutter. I'm way down here. Thank you very much to 
the panelists. Thank you to Chairman Culberson for bringing his 
bill before us.
    And there are a lot of principles that I think we all 
share. Sometimes, you lose sight of those when you take shots 
at each other's party or each other's President. I remind my 
friends on the Republican side of the aisle, did the math, and 
I did this in public, 2016 minus 1972, it's been 44 years since 
we've been on the Moon and 24 of those years we've had 
Republican Presidents and 20 of those years we've had 
Democrats. So we need to get back into space.
    And whether--so for me--and my colleagues know that I like 
this time frame to get us to Mars, when the planets lineup, 
it's time to get there. We set an outside date, 2033. That's a 
responsibility of us on the political side whether it's the 
Administration or Congresses, which change every 2 years.
    So I'm going to give my friend, who's the Chairman of CJS, 
the benefit of the doubt because he's been through this. And if 
there's some way that we can put together a structure that 
takes out the vagaries of each Congressional election and each 
presidential election and gets us to Mars by 2033 and you folks 
with the engineering degrees and the physics degrees and the 
accounting degrees figure out how to put the building blocks in 
place, then I'm there. That's your job. My job is to find you 
the money.
    And we've had testimony that over the course of--to get to 
Mars is $200 billion plus. That's a lot of money. But we found 
$800 million for the banks over a weekend. We found $250 
billion a year to be in Afghanistan and Iraq. We can do this.
    So, I'd like to have some kind of structure at NASA that 
allows for long-term thinking. So I'll start with you, Ms. 
Collins. You said you didn't have a real position on the 
Chairman's bill, but what would you do that--what would you say 
to me? How can we put long-term planning into place when we 
have two-year cycles for Congress and four-year cycles for the 
President?
    Ms. Collins. Well, thank you for the question. I think--
well, first of all, let me say our system of government is the 
greatest in the world, and I think that discussions that we 
have are wonderful. We get things out on the table. We have 
disagreements. I think the end goal--everybody's goal is the 
same. We want to have a strong human spaceflight program with a 
mission, we want to succeed, we want to get there at the best 
cost, and we want to do it safely. We don't want to hurt 
anybody in the process.
    My first answer I would say is don't give up. So this 
applies on all levels. I mean, we did give up on Constellation. 
I think that the reason given was the cost, and yes, the cost 
was high. I mean, we all admit that. But instead of just giving 
up on the whole program--and I'm talking about not the past; 
I'm talking about the future here if this happens again. Let's 
just take a good hard look at can we--where can we cut the fat? 
Do we have the right people in there working the program? Maybe 
there's changes that need to be made, but we don't really need 
to give up on the end mission once that's been defined. We 
might need to change course a little, but keep--don't give up. 
Keep the mission in sight.
    Mr. Perlmutter. In mind. So for me--and I really agree with 
a lot of the things that Mr. Posey said and some of the others, 
you know, that there is--there are two pieces to this. One is 
our basic desire to learn, science and exploration, to get to 
Mars, to be in space. The second is a national security 
question. And so between the two of them we ought to be able to 
get out there and get going for a long time, for however it 
might be.
    So, Dr. Griffin, you've had your taste of political science 
and obviously you're a scientist as well. So as Administrator, 
you've been--you've run into both buzz saws. So how would you--
you know, just saying, hey, you guys got to have a longer-term 
approach to this, what would be your view? How do we do it?
    Mr. Griffin. Thank you, Mr. Perlmutter. I cannot resist 
going for the simplest possible explanation or recommendation. 
I've been very clear in today's testimony and on earlier 
occasions that I very much admired the authorization bills of 
2005 and 2008, which this Congress passed and frankly were 
originated in this Committee. The 2010 bill was also a good 
bill.
    When proposals are made by the executive branch that 
conflict with the existing law, why does Congress go along? I 
have to say, had Congress merely made it extraordinarily clear 
to the incoming Administration that while that Administration 
had many problems before it, space was not one of those 
problem, that the Congress had decided upon the space plan, the 
space policy of the United States, and that policy would be 
kept. Had that been communicated, we would not be sitting here 
having this hearing today.
    I said earlier in my testimony that I've regarded the 
Congress as the long-term body of stability if you will in the 
political system to capture the desire that Americans generally 
have for a particular course of action, to capture that in 
legislation, and to preserve it. If we treated our Navy the way 
that we treat NASA in terms of stability, we would not be able 
to project power upon the oceans the way that we do.
    It takes as long to build an aircraft carrier as it took to 
go to the moon even when people are really working hard at it. 
If we decided with every incoming Administration whether we 
were going to preserve aircraft carriers, the United States 
would have none.
    So I'll simplify my comments. The first recommendation I 
would have would be let us again, as we did after the loss of 
Columbia, decide as a nation what we want to see accomplished 
in space. Let us, as we did after Columbia, codify that into 
law. And then let us obey the law.
    Mr. Perlmutter. Okay. Thank you.
    Mr. Griffin. Thank you, sir.
    Mr. Perlmutter. And I thank the Chairman for letting me go 
over. And I want in the law that we're going to be on Mars by 
2033.
    Mr. Griffin. I'm not fighting that.
    Chairman Smith. Thank you, Mr. Perlmutter. We're with you 
on 2033.
    And the gentleman from Oklahoma, Mr. Bridenstine, is 
recognized for his comments.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    And I would like to say to my friend Mr. Perlmutter--
actually to the Chairman if it's all right--I think we should 
have our own sticker that says 2032. We don't want to settle 
for 2033. Republicans ought to go for 2032.
    In 1982, President Reagan reorganized our Navy's Nuclear 
Propulsion Program, citing the need to preserve structures and 
policies. While ensuring the program continues to function 
smoothly and efficiently, he ordered that the director of this 
program of great national import be appointed for an eight-year 
term. This change ensured that the leadership and direction of 
our nuclear Navy remained constant over at least, at least two 
presidential cycles if not multiple Administrations.
    Likewise, NASA is an agency carrying out programs of 
national importance, which by their very nature take years, as 
Dr. Griffin just talked about, if not decades, to formulate, 
develop, and carry out. It makes complete sense to me to remove 
the Administrator of NASA from the political cycles in order to 
allow for continuity and stability.
    I am proud to be a cosponsor of Chairman Culberson's bill, 
which proposes a ten-year term for the NASA Administrator. The 
Space Foundation's pioneering doctrine recommends a term of 
five years. I am working on legislation that includes a 
provision that establishes a five-year term as well. Regardless 
of the number, however, it seems that there is growing 
consensus among stakeholders and advocates to set the length of 
the Administrator's term beyond the standard political cycles.
    Ms. Chaplain, while you focus mostly on space programs, 
have you gotten a sense from your time at GAO of the 
differences in how NASA acquisitions differ from those of 
government agencies that are run by nonpolitical or 
nontraditional heads? Have you seen a difference in how those 
acquisition strategies go?
    Ms. Chaplain. Most of the agencies with large acquisitions 
and complex ones like NASA do have political appointees. We 
don't get too much insight into the intel world, and that might 
be something to look at, but they're still political there, 
too. So I don't have a model there to look at.
    There--other situations--agencies that have longer-term ten 
years for Administrators, GAO is actually one of them. We have 
a 15-year appointment for our Comptroller General, and the 
purpose is to keep the politics out of our work.
    Mr. Bridenstine. Sure.
    Ms. Chaplain. So there are other good models out there.
    Mr. Bridenstine. Butfrom your assessment, and maybe you 
don't make assessments since you're with GAO, but those kind of 
models, are they better at----
    Ms. Chaplain. We don't have one that looks at that from an 
acquisition perspective.
    Mr. Bridenstine. Okay.
    Ms. Chaplain. There's also other space agencies 
internationally that have boards and different structures that 
could be looked at, but we haven't done that ourselves.
    Mr. Bridenstine. Okay. And, Mr. Griffin, when you think 
about some of the stumbles, obviously your testimony today at 
the beginning, talking about, you know, 2010 and beyond with 
NASA and some of the stumbles that we've encountered, if your 
term had been extended and you would have been the 
Administrator, can you share with us how things might have been 
different?
    Mr. Griffin. Well, sir, I don't know that they would have 
been because Administrators and appointees take orders from the 
chief executive.
    Mr. Bridenstine. I see.
    Mr. Griffin. If the chief executive really wanted to change 
the space program, then I would have had the choice of either 
following orders or resigning. Had I been given the orders that 
my successor was given, I would have resigned because I 
thought, as I said now multiple times, I thought that the 
direction of Congress in 2005 and '08 was extraordinarily good. 
I believed we were on the right path and should maintain it. 
Therefore, if ordered to deviate from that path, I would not 
have remained.
    I think, again, the issue--I have no objection to 
considering a five-year term, a six-year term, an eight-year 
term, whatever length of term for the Administrator, nor do I 
have any objection with the way it's done today. I think these 
kinds of discussions are a symptom of the problem we face, 
which is a lack of understanding at the top levels of 
government of the importance of our space program and the need 
to have both a quality program and stability of that program.
    I'll use another analogy. If we treated the Air Force as we 
do the space program, we wouldn't have any flying aircraft. We 
would--we cannot decide every few years what we want the 
purpose of the space program to be. We have to have a societal-
level agreement as to that purpose and then let our appointed 
officials carry it out. And it almost doesn't make any 
difference to me how they are appointed or what their term is. 
Thank you.
    Mr. Bridenstine. Thank you. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Bridenstine.
    And the gentleman from Texas, Mr. Babin, is recognized for 
his questions.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman.
    Great testimony, thank you. Thank you all.
    Dr. Griffin, you testified that the most logical step 
beyond the ISS is an international partnership led by the 
United States to return to the moon, this time to stay. How 
does returning to the moon and maintaining a permanent presence 
there help us eventually send American astronauts to the 
surface of Mars?
    Mr. Griffin. Well, thank you, Dr. Babin. I love that 
question. I believe that if God had wanted us to go to Mars, he 
would have given us a moon to practice on.
    Colonel Collins made the remark earlier--I'm not trying to 
quote her, but to the general effect that learning how to live 
on--in space and on another planetary surface would transfer 
directly to learning how to go to Mars, and I believe that to 
be the case.
    As in--I'll summarize by saying, as an engineer, if you 
wanted me to say when we're ready to go to Mars, if you will, 
like the head of naval submarines certifying a submarine for 
sea trials, then I'll say you're ready to go to Mars when you 
can put a crew on the International Space Station for six 
months, and they have to live there without any further help 
from the ground. Then, they get ferried to the moon and they 
live on the surface of the moon in 1/6 gravity for 13 months. 
And then you bring them back and you let them live on the space 
station again for six more months in zero G. and during all 
this time they get no additional help beyond that which was 
preprinted on the surface of the moon or on the station. So 
that ends up being a total of about a 26-month cycle for that 
crew.
    When we can do that and the crew is still alive and 
healthy, then we're ready to go to Mars and not before.
    Mr. Babin. Excellent. Thank you very much.
    And, Colonel Collins, you testified that program 
cancellation decisions made by bureaucracies behind closed 
doors and without input by the people are divisive, damaging, 
cowardly, and many times more expensive in the long run. I 
cannot agree more.
    What do you recommend that we do as a nation to prevent 
these types of cancellation decisions and ensure consistency of 
purpose over many years and over many political 
administrations?
    Ms. Collins. We as a country need to discuss these very, 
very important missions out in the open. They have got to be 
discussed--I don't believe this was discussed--in fact, I'm 
sure it wasn't because I was very shocked and very surprised 
when I learned that the budget was rolled out that first week 
in February of 2010 and there was a big fat zero in the 
Constellation program. I asked one of the top managers at 
NASA--in fact, I was up here on the NASA Advisory Council--did 
you know this was coming? And he said well, we thought we might 
have lost Ares I. We had no idea that we were going to lose the 
whole thing. I was just amazed that--does our government work 
this way? This can't possibly be true.
    Mr. Babin. It shouldn't.
    Ms. Collins. So to answer your question, what do we--we 
have got to ensure the discussion takes place in the open and 
that--and this is the way good businesses need to be run. 
You've got to talk to the people that work all throughout the 
organization, people outside of the organization from academia, 
from industry. It is most certain that everyone will disagree 
on how we do it, but that's healthy. And then we make a 
decision by--I mean, you can vote or we can be autocratic about 
it, but it cannot be a surprise, so however you do that.
    And I'd like to add one other thing to your previous 
question about going to Mars. It is very, very, very important 
that the life-support systems work, and the space station, this 
it--I know I'm saying the obvious here, but what we're doing on 
the space station is essential. But the moon and Mars are 
different places. You've got dust, you do have some gravity, 
it's just a different place. You have got to test your closed-
loop life-support systems, whether it's in habitat, a 
spacecraft or in a spacesuit. A spacesuit is a--like a mini 
spacecraft.
    Mr. Babin. Right.
    Ms. Collins. So I just wanted to add that to the previous 
question. Thank you.
    Mr. Babin. Okay. Thank you so very much, witnesses.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Babin.
    And the gentleman from Alabama, Mr. Brooks, is recognized 
for questions.
    Mr. Brooks. Thank you, Mr. Chairman. And witnesses, again, 
I apologize for being a little bit tardy, but I had a 9:30 
House Foreign Affairs Committee hearing with Secretary of State 
John Kerry over the State Department budget, followed by Armed 
Services at 10:00 a.m. with General Breedlove on U.S.-European 
commands, so I hope you'll bear with me. I got here as quick as 
I could.
    I do have a question for each of you. And, Dr. Griffin, if 
you could please lead off. Why do you believe--excuse me. What 
do you believe the proper role of commercial space could be in 
the context of a stable, long-term NASA strategic plan?
    Mr. Griffin. Well, as I pointed out in my testimony, the 
first commercial cargos for carriage to the International Space 
Station were signed under my tenure, so I'm a strong supporter 
of the utilization of commercial space purveyors in our 
strategic plans.
    That said, I think we've maybe a bit drifted off the path. 
When I use the term commercial to describe an enterprise, I'm 
talking about an enterprise such as I've run in the past where 
you have to raise your own money, develop your own product, 
bring it to the market, and then you sell it for every dime 
that you can get. I'm not talking about enterprises where the 
government has to invest the lion's share of the money in order 
to earn the right to buy a ticket.
    And if the public record is examined, I think that you'll 
see that in recent years in our so-called commercial space 
portfolio, that's what happened. The lion's share of the money 
has come from government. In fact, I'm not sure there's a share 
that the lion didn't have.
    So these types of arrangements I would call private-public 
partnerships, and I'm not always certain that we're getting the 
best deal on the public side of those partnerships, and I think 
we need to look carefully at it.
    The second thing that I would observe is if we have--if we 
were to be so fortunate as to have again a national strategic 
plan for what we want to do in space, it certainly should 
include as much contribution as commercial space providers can 
offer. But they need to offer what it is that the government 
wants to buy. It's not our purpose in government to figure out 
what our space program should look like so that commercial 
providers can sell what they want to sell. And again, I would 
say that the experience of recent years offers some guidelines 
in that regard. So I'll just leave it at that. Thank you, sir.
    Mr. Brooks. Colonel Collins or Ms. Chaplain, do you have 
anything to add?
    Ms. Chaplain. I'll just add that, you know, the government 
is usually the one to push technology and discovery, and in all 
those areas that's where the government's role should be. When 
you have lower-risk technology or something that's already 
proven that's needed, that is a good place to use pathfinder 
types of commercial efforts where they can prove themselves and 
even take over some kinds of operations.
    If you look more broadly beyond NASA, commercial space is 
starting to play a bigger role in doing things like hosted 
payloads for government, providing bandwidth for DOD, and even 
running ground operations. There's all good areas for them to 
be playing in.
    Mr. Brooks. Yes, ma'am.
    Colonel Collins?
    Ms. Collins. Sir, I'd like to just mention the space 
station as far as commercial space. I know this may sound like 
it's a crazy idea, but--okay. The space station, we know, is 
funded to 2024, and the United States has to decide are we 
going to find that out to maybe 2028 or do we stop funding in 
2024 and put it into heavy lift or deep space? Having been in 
space, I believe that there will be a commercial interest in 
the space station. I can't really say timing-wise 2024, but 
there are plenty of tourists and people that have money that 
would love to go up in space and live on the space station. It 
is such an amazing, wonderful human experience. People would 
pay big money to do that, and if we could find a private 
company that'd be willing to take over the space station and 
sell it like a hotel, sell space up there like a hotel, we may 
be able to kind of wean ourselves off the space station and get 
NASA back into deep space, just a thought.
    Mr. Brooks. Well, what are we paying the Russians now? 
Somewhere in the neighborhood of 60 or $70 million per ride?
    Ms. Collins. Somewhere----
    Mr. Brooks. Do you think there's a market for the space 
station at that ticket price? Well, the Russians have sold one 
or two, haven't they?
    Mr. Griffin. If I could make a comment, I don't think we'll 
find out if there's a market until we try.
    Mr. Brooks. Okay.
    Mr. Griffin. I would echo Colonel Collins' comments about 
value--the longer-term value of the space station. I have to 
add, I think it's really shocking to be considering that after 
the multi-decade and multi-tens of billions of dollar 
investment in the space station that now we're talking about 
what date we're going to reenter it into the Indian Ocean. I 
cannot think of another example of a large laboratory 
investment or a large facility investment that the day it's 
completed we start figuring out when we're going to tear it 
down.
    If the government cannot find suitable uses for a 
laboratory in space, then I would echo Colonel Collins' 
comment. Maybe we should consider turning it over to a private 
entity and seeing what they could sell space on the space 
station for.
    Mr. Brooks. Thank you for that interesting insight.
    Chairman Smith. Thank you, Mr. Brooks.
    In the interest of balance and because he is such a 
diligent Member of this Committee, without objection, the 
gentleman from Colorado, Mr. Perlmutter, will be recognized for 
an additional 2 minutes.
    Mr. Perlmutter. Thanks, Mr. Chair.
    And my friends on the Financial Services Committee wonder 
where I've gone. I just said I've gone to the Science 
Committee, so that's what's happening here.
    Ms. Chaplain, I'd like to ask you, because Dr. Griffin has 
used the comparisons of the Air Force and the Navy and, you 
know, building this and building that. From a GAO standpoint, I 
mean, how can we have a multiyear--how does a multiyear kind of 
acquisition process work when no Congress combined the next 
Congress? How do you do that?
    Ms. Chaplain. So typically, you do commit over time to any 
program. Even NASA does that. The contracts work year-by-year. 
The multiyear authority allows you just to go beyond that first 
span of time, five years, and to commit to buying a lot more 
items upfront. That does tie the hands of Congress, but it 
doesn't tie funding so much because that's still done on the 
year-to-year basis. So you're just making a longer-term 
commitment.
    The issue in taking this authority and applying it to NASA 
is it works better in a production environment. Even DOD, 
before it can employ a multiyear contract, has to demonstrate 
that there's stable design, stable requirements, that there's 
going to be substantial savings achieved from buying in bulk. 
Instead of six airplanes, for example, you're committing to 30.
    So we have some questions in our head about how this could 
work in the NASA arena. Most NASA projects are just one-off 
satellites, for example, and the cost-plus arrangements that 
they use for that because they involve a lot of discovery, are 
appropriate.
    Mr. Perlmutter. Well, see, I guess one of the things we've 
been talking about is a Mars mission, all right? And I--there's 
a lot of support for something like that, and we pick a date 
and, you know, we've had the scientists who say 2033 is when 
the planets line up in a way that makes it easier for us to get 
our astronauts there. So that's why I'm taking that date.
    If we give--if we the Congress say to ourselves and to the 
President, you know, we want a date, and then we let NASA and 
its experts kind of say, okay, this is how we're going to do 
it, these are the building blocks that includes going back to 
the Moon and that this--I mean, they're the experts on this 
side. Is there--have you seen anything in your experience that 
gives us--we could do a multiyear acquisition or approach where 
we could dedicate money for the next 17 years?
    Ms. Chaplain. Usually, for long-term projects within DOD, 
money is dedicated up front. But again, if you're developing 
and researching a Joint Strike Fighter, all those contracts up 
until the point that you're ready to produce are sort of in 
that cost-plus range and they go year-to-year because you have 
a lot of unknowns and you kind of have to revisit things on a 
year-to-year basis. Once you enter the production phase, you're 
in a better situation to do fixed-price contracting that can 
actually go through many years.
    So I don't know if what we have now would work ideally, the 
authorities now would work well for the Mars situation. If you 
committed everything up front, it would be an incredible amount 
of money that you would have to put aside to guarantee that 
it's all there for the 20-year effort.
    Mr. Perlmutter. No, and I thank you for that. I mean, it's 
a big amount, there's no question, but we, you know, at least 
during my tenure here in the Congress since 2006, we've spent a 
lot in the Middle East. We've spent a lot to keep Wall Street 
from collapsing, you know, and it's been sort of bipartisan in 
nature in terms of those appropriations. So the country is a 
wealthy country; it's how we prioritize things. We can do this. 
There's--from a money standpoint if we're prepared to make this 
a priority.
    And that's why I'm prepared to listen, you know, to an 
approach like Chairman Culberson has of a way that might give 
both sides of the aisle some comforts going long term because 
we--this has to be long term. We have to think long term. We 
can't think just next year.
    Ms. Chaplain. And I would just add the bill talks about 
multiyear contracting. There are also options for multiyear 
funding and appropriations that work sometimes on the DOD side 
that wasn't mentioned in the bill, but there are some other 
mechanisms that could be explored on the appropriations side.
    Mr. Perlmutter. Okay. Thank you. And I thank the Chair for 
giving me this extra time.
    Chairman Smith. Thank you, Mr. Perlmutter.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much. And I also apologize 
for being tardy today. I was at that meeting with Secretary 
Kerry, and I happen to believe that our space effort is 
actually as important as American foreign policy to our future, 
so I tried to run between these two.
    I've been here 28 years, and of course Dr. Griffin and I 
worked together over these years, and I certainly--let me just 
be on the record that I certainly agree with your concept of 
making sure we go to the moon before we go on to Mars and learn 
a lot as we're doing that, getting back to the moon.
    What I have seen, Mr. Chairman, is our biggest problem in 
having space--a rationale space program is with us. I mean, we 
just seem to try to--we prioritize projects and we spend money 
for projects that we can't do. And thus we--and then we end up 
defunding what we can do. And that's--it's irrational, and I 
understand, with all due respect to my friend and colleague who 
is so adamant about going to Mars, I have several of my friends 
who are that way, we're not ready to go to Mars right now. We 
don't even know--the technology's not there. But there is the 
technology and availability of doing things that we can 
actually accomplish right now. And if we want the respect of 
the American people, we're going to do it by making sure we get 
things done.
    And having a long-term commitment that drains money away 
from the projects that we can do in order to accomplish 
something that we can't do now and maybe won't be able to do 
within our lifetime, that is not being responsible, and 
frankly, I think that's where the problem comes from. We 
continually try to finance projects that we are incapable of 
accomplishing at that moment. And of course you're going to 
have a high failure rate if you do that.
    So I would hope that as we--and I--as I say, I agree with 
Dr. Griffin on his approach that we need to step by step--
several of the things we could do, by the way, which we could 
do which may be totally unfunded if we just spend all our money 
on going to Mars is we have a space debris challenge. We're not 
going to be able to do anything in space unless we have some 
sort of space debris program. It'll have to be an international 
effort. But in the years ahead, that's going to overwhelm us. 
It's already beginning to overwhelm us.
    We don't have a global defense system set up so that if an 
asteroid--and I'll ask this of the panel. If that meteorite 
that skimmed the surface over in Russia a couple of years ago, 
instead of going--being in uninhabited areas would have hit a 
major city anywhere in the world and killed hundreds of 
thousands of people, do you think that that would have then 
changed the entire course and direction of our own space 
budget? Wouldn't that have been a factor that would have 
overwhelmed--and then all of these other programs that we've 
financed like long-term missions to Mars would just go by the 
wayside? So we need to take care of that issue, don't we? Don't 
we need to take care of space debris? Don't we need to take 
care of those things that we can get done and in the private 
sector we could leave things up like--by the way, refueling 
stations, et cetera?
    There is one other lab, by the way, in terms of the space 
station. I remember, wasn't the space lab also a huge 
investment that we just allowed to come down as well?
    Mr. Griffin. That was Skylab, sir----
    Mr. Rohrabacher. Skylab, excuse me.
    Mr. Griffin. --and yes, we did. We have an unfortunate 
record of not preserving our capital assets in space.
    Mr. Rohrabacher. Right.
    Mr. Griffin. It reentered in 1979.
    Mr. Rohrabacher. Well, I would think that the problem of 
not being able to accomplish our missions is--can be found 
right here in the fact that our judgment has been to try to do 
things we can't do while defunding those things we can do. 
Thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentleman from Virginia, Mr. Beyer, is recognized for 
his questions.
    Mr. Beyer. Yes, thank you, Mr. Chairman. And thank you all 
very much for being here.
    Dr. Griffin, in his prepared statement this morning 
Representative Culberson stated ``that over the years, a lack 
of clear mission has worn down morale at many centers.'' And he 
talked, interestingly, about people saying, well, is our 
mission to go to asteroids or is it to go to the moon again or 
is it to go to Mars?
    But I also find the assessment somewhat puzzling when you 
consider the findings from the annual survey by the nonpartisan 
Partnership for Public Service that consistently ranks NASA as 
the best place to work among federal agencies. And while the 
median overall index score for large agencies has shown a 
slight downward trend 2011 through 2015, NASA's score actually 
went up during the same period.
    And according to the partnership, the biggest factor 
affecting employee satisfaction and commitment overall in the 
best places to work rank is related to effective leadership. 
How do you reconcile NASA being a great place to work with 
Representative Culberson's concern about a lack of morale?
    Mr. Griffin. I'm sorry. Was that for me or for Colonel 
Collins?
    Mr. Beyer. Oh, either one, yes. Colonel, Doctor, Colonel 
Collins?
    Ms. Collins. Well, I think that's a very good question 
because it depends on who you talk to. I can tell you, though, 
that when I was at NASA, morale was very high. We had space 
shuttle program, we were building a space station and 
supporting the space station with the knowledge that the long-
term goal is going to Mars. I know that's very far out in the 
future. I sure hope I'm alive when people walk on the surface 
of Mars, but I'm pretty sure my kids are going to be here when 
we walk on Mars, and I think we're going to get there.
    But to answer your question, you know, I think that would--
that's not entirely clear to me. I know that when I did surveys 
like that, I gave NASA the highest ratings possible because I 
felt that the leadership within the astronaut office and flight 
crew operations and even at Johnson Space Center was 
outstanding. And I think that was the perception of my 
coworkers also.
    Every organization has its cultural issues. I would have to 
say of all the places I've worked, NASA is the tops, no doubt.
    Mr. Beyer. Let me follow up. Representative----
    Ms. Collins. But----
    Mr. Beyer. Oh, excuse me. Go ahead.
    Ms. Collins. Okay. When the Constellation program was 
cancelled, what happened shortly after that was people thought, 
did I just lose my job? What am I going to do tomorrow? Do I go 
to work tomorrow? I think there was a very unstable period 
there, and I'm not even sure that the bosses knew what to tell 
their people. Just keep coming to work, just keep doing what 
you're doing, but when am I going to lose my job?
    So I think that's a--that's really a tough question to 
answer. I can see both sides of the issue.
    Mr. Beyer. Let me ask a follow-up. Representative Culberson 
also in his testimony talked about--I think it was 27 
projects--major projects have been cancelled, $20 billion that 
basically had to be written off, invested but then lost. If you 
had a ten-year Administrator who emerges from this new board, 
is it less likely that these projects would have had to be 
cancelled?
    Ms. Collins. That remains to be seen. I do want to make a 
comment on the proposal for the ten-year Administrator. I think 
that the concept is good. I think it might be too long. In 
reality, if--when you start searching for someone who is 
willing to commit to ten years of a very, very difficult job, 
which is your--it may be hard to find somebody of all the 
qualified people out there that want to initially commit for 
ten years. And then how do you know that they'd be willing to 
stay that long? It's just a long period of time. If you went 
more with 5 or 6, I think your pool of qualified potentials out 
there would be bigger and you'd have more people willing to 
take on the very difficult job of NASA Administration.
    Mr. Beyer. Okay. Thank you.
    Ms. Collins. But I think it remains to be seen. On the 
surface, I would say yes.
    Mr. Beyer. Okay.
    Ms. Collins. Just based on what I have seen with over 
government agencies.
    Mr. Beyer. Let me--one last question of Dr. Griffin. So the 
bill proposes a budget proposed by the management board in 
addition to the one proposed by NASA and OMB and what we're 
working at here on the Hill. Do you have any concerns about a 
the Board proposing a detailed budget when they have neither 
the management responsibilities, nor the accountability for 
delivery and results?
    Mr. Griffin. Well, I do. I do have concerns about that. I 
had to--one of the key things for which I was responsible for 
when I was Administrator was preparing with all of my staff a 
detailed budget, and it was something that we paid close 
attention to because, of course, it had to go from us to the 
OMB, where we would have to defend it to the OMB, and then it 
would come from the President's budget submission to Congress 
and we would have to defend it to the Congress. And I didn't 
want anything in it that I didn't support and didn't agree 
with.
    It would be, I think, very difficult as a practical matter 
to support that exercise and then to have a similar but in some 
ways different budget coming from an independent board. I would 
wonder where they would get their information. If their 
information came from NASA, as it almost must, then really how 
would it be different than the budget the Administrator 
prepares other than they have different priorities. But I can 
ask any group of people what your priorities are, and they're 
as, you know, likely to be different. So I would have concerns 
about that approach.
    Mr. Beyer. Thank you. Thank you, Doctor.
    Mr. Griffin. But equally, sir, I must conclude by stating 
that anything which can be done to ameliorate and control the 
influence of the OMB on the process would be welcome. I mean, 
the OMB is a haven for largely unelected, un-appointed, not-
very-well-qualified staff who seek to exercise a level of power 
and control in their area that their accomplishments have not 
earned.
    Mr. Beyer. You're not doing anything to help OMB morale 
right now, Dr. Griffin, so----
    Mr. Griffin. You know, that's really too bad. So anything 
which can be done by the Congress to ensure stable budgeting of 
appropriate projects, I think, would be a good thing. I'm not 
sure that the Board-of-Directors approach is that method. Thank 
you.
    Mr. Beyer. Thanks for your perspective.
    Thank you, Mr. Chair.
    Mr. Babin. [Presiding] Yes, sir.
    I now recognize the gentleman from Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Dr. Griffin, we hear over and over again about a need for 
constancy of purpose at NASA and the detrimental impacts of 
shifting priorities, organizational conflicts, mixed signals 
from Congress, and I can go on and on. How much of this lack of 
purpose do you think can be changed through a reorganization 
such as the one outlined in the Space Leadership Preservation 
Act?
    Mr. Griffin. Well, sir, as we talked earlier, I think the 
Space Leadership Preservation Act might be one tool to achieve 
that constancy of purpose, but it's just a tool. If the 
Congress at large can codify into law a space policy for the 
United States that its citizens support and the space community 
supports and that we want to do as a society, that is the 
crucial step.
    Mr. Palmer. You're saying we've got to work through the 
ideological differences Congress?
    Mr. Griffin. Yes. Yes, sir. And I will remind you, if that 
sounds a hopeless task, I was here.
    Mr. Palmer. Well, if it were up to my colleague from 
Colorado and me, we could work this out fairly quickly.
    Mr. Griffin. But we did this in 2003 and '04 following the 
loss of Columbia, and for a two-year period, I myself 
participated in four hearings in both House and Senate, along 
with many, many other people, and these things were thrashed 
out, and we emerged from that period with a good plan.
    Mr. Palmer. I come from an engineering background, and I 
believe the space program is fundamentally more engineering 
than science. Obviously, there's science and in engineering, I 
think anyone who's been involved in that field understands that 
you have to have clearly defined objectives. Otherwise, you'll 
never build to design. You'll--and you will spend an enormous 
amount of money and get nothing. And so I do think we've got to 
have that--a vision that we can design to, which, I guess, does 
the lack of continuity at NASA affect some programs more 
intensely than it does others?
    Mr. Griffin. I couldn't agree more with your comments, sir. 
I could not agree more. And the longer-term and larger the 
project is, the more that lack of consistency of purpose 
affects it. If I have a discovery program, a small satellite 
mission program to another planet that costs $500 million and 
can be done in three or four or five years, then, no, such a 
program would not be much affected.
    If we're talking about recreating a new heavy lift launch 
vehicle, as we are with the Space Launch System that Colonel 
Collins mentioned earlier today, well, that is a multiyear 
proposition and a multi-billion-dollar proposition, and it 
needs to be sustained or not done at all.
    Mr. Palmer. I've actually visited the facility where that 
work is being done, and it needs to be completed because 
there's not a whole lot of use for it if we don't. And I think 
many of my colleagues here would agree with this, that we do 
need to allow NASA to define the vision with our oversight but 
get behind it. Otherwise, we're going to continue to waste an 
enormous amount of money.
    Dr. Griffin, I'll ask you this question. There's an op-ed 
in Space News, Mary Lynne Dittmar of the Coalition for Deep 
Space Exploration touts the flexibility of the Space Launch 
System, which was just mentioned, which will be capable of 
launching a wide array of missions, given the lack of 
continuity, how important is it for NASA systems to be 
adaptable to changing priorities?
    Mr. Griffin. Well, it would be nice to say that NASA's 
systems and programs could be easily adapted to changing 
priorities. I don't think it's very realistic. It's one of 
those things that everyone would like but is pretty hard to do. 
When it takes five or six or seven or eight years to accomplish 
a great thing, if the priorities change in the meantime, you 
know, you're left hanging. And----
    Mr. Palmer. That's where you run into all of the change 
orders and----
    Mr. Griffin. That's----
    Mr. Palmer. --the run-up in cost and then everybody's 
frustrated.
    Mr. Griffin. Exactly, sir. It costs more money and you 
don't get the product out in the end. I thought Mary Lynne's 
op-ed was very well done. She's far more articulate than I am, 
and I was glad to see such an op-ed in Space News.
    Mr. Palmer. Well, I had to go to another hearing earlier, 
but while I was here, I heard you talk about the overall vision 
for space and what it means for us and Colonel Collins' comment 
on this as well. And that was an inspired--in my opinion, an 
inspired view of America's role in space, and I commend you for 
it.
    My time is expired. I yield back, Mr. Chairman.
    Mr. Babin. Yes, sir, Mr. Palmer.
    I now recognize the gentleman from Illinois, Mr. Hultgren.
    Mr. Hultgren. Thank you, Chairman, and thank you all for 
being here.
    First, I seek unanimous consent to enter into the record an 
article that was coauthored by former Commerce, Justice, 
Science Subcommittee Chairman Frank Wolf and Norm Augustine, 
who this Committee knows very well. So I'd ask unanimous 
consent for submission----
    Mr. Babin. Without objection, so ordered.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hultgren. Thank you.
    Again, I want to thank you all for being here, so grateful 
for your work. I especially want to just thank Colonel Collins. 
I really appreciate your service to our nation and the 
inspiration you are to young people, but especially to young 
women of incredible opportunities and how we need them to be 
involved in space and science and discovery. So thank you.
    And, Dr. Griffin, so grateful for your service as 
Administrator, really I think a bright time and a time we can 
be proud of of your service there, so I want to thank you so 
much for that.
    This is an important hearing, and as we continue to look 
for ways to bring long-term vision and stability for NASA, 
National Aeronautics and Space Administration. I think it's 
something we need to be looking at across our entire scientific 
ecosystem as well. As science becomes an increasingly 
collaborative and international enterprise, other countries are 
putting their stake in the ground to find a place with they 
will lead. America has traditionally led across the board. It 
is not the only measure, but one need only look at the list of 
Nobel Prizes per country. We are the number one, but other 
countries are catching up very quickly.
    If we rest on our laurels, we may have a future where we 
have to send our kids overseas to get the best education in the 
world and to do groundbreaking research to get that next Nobel 
Prize.
    One idea outlined by the article that I entered into the 
record, but the article written by Congressman Wolf and Mr. 
Augustine is for a dedicated fund for scientific research that 
we can actually put together 5-, 10-, or 25-year plans. As our 
witnesses should be able to attest, our researchers and 
scientists are walking on pins and needles just hoping that 
their project can stay on pace, on budget, and outside the ire 
of OMB bureaucrats or a disinterested Administration. When the 
President leaves or shifts around Administrators, researchers 
have to spend their time catching new people up just to let 
them know what we are doing.
    A program can be cut or priorities can be shifted without 
the full picture. The cancellation of Constellation was a 
disaster. I think we all can see that now. It has been not just 
a setback, but it also hurts our standing in the world. I think 
Russia snickers when we need them to take our astronauts to the 
space station that our shuttle built.
    Dr. Griffin, what are the first questions that we get from 
other nations when we come to them with an ambitious long-term 
project that will require all sides to deliver to see success? 
What response do we get back from them?
    Mr. Griffin. Well, in my time we were still working on 
trying to do two things. We were working on completing the 
International Space Station because only 1/3 of it was finished 
when the shuttle went down, and so the first questions I faced 
almost immediately after my confirmation hearing back in the 
spring of 2005 were from our partners. Are you really going to 
stick with this? Are you going to see it through?
    And following the loss of Columbia, we knew that we were 
not going to be able to have as many shuttle flights as we had 
previously planned, so we had at that time to cut back somewhat 
our--what we called our utilization flights in order to 
prioritize assembly. And I committed--with the backing of then-
President Bush, I committed that the United States would finish 
the station. And the sighs of relief were palpable. So I'm 
answering your question by my experience is what they want to 
know is are you going to see it through?
    Mr. Hultgren. Yes.
    Mr. Griffin. When we asked them--the second thing we were 
doing--per our instructions from the White House Congress, the 
second thing we were doing was embarking on a plan for human 
lunar return. And the written words in the policy said that we 
would do it in company with our international partners, so it 
became my job to put that partnership together.
    The first question they asked is, are you really serious? 
And at first they didn't really believe it. As several years 
went by, they did believe it, and by early 2009, they were 
fully in support of returning to the moon. And in the next year 
we cancelled. I had--I was of course gone from Washington by 
then, but I had phone calls from all over the world.
    Eileen made the comment earlier that the NASA Advisory 
Council did not receive any information prior to the 
cancellation of Constellation, that it would happen. Well, you 
can take that and square it for our international partners who 
woke up on a Tuesday morning to find out that the lunar program 
they thought they were a part of was gone.
    I know I'm overstaying my time and yours, but I must 
conclude this question with a story that I think is sad for 
what it conveys. In the spring of 2010 I happened to be down at 
Cape Canaveral and having dinner at one of my favorite 
restaurants down there over the years, and a waiter, an 
immigrant from Italy who knew me well, came over to my table 
and said, Dr. Griffin, he said, what is this I hear they're 
cancelling the moon program? And I said, yes, that's true. And 
in typical Italian fashion, he starts waving his arms and 
saying I came to this country because you were the people who 
can build space shuttles and build space stations and go to the 
moon, he said, and now you're not? He says what is it with 
these people? Do they not know what it means to be a 
superpower? And I will never forget that conversation. That is 
what people from other countries think of us when we start and 
stop. Thank you.
    Mr. Hultgren. Thank you. Well, I totally agree. My time is 
up, but really, we need to put our money where our mouth is. We 
need to follow through on our commitments. And so I appreciate 
it. Again, my time is up. I yield back, Chairman. Thank you.
    Mr. Babin. Yes, sir.
    I now recognize the gentleman from Georgia, Mr. Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Dr. Griffin, I know during your tenure at NASA you put a 
lot of focus on international cooperation, but you were 
cautious about putting international partners on a critical 
path, especially from the lessons from the International Space 
Station program. What--I'm sorry. What recommendations would 
you have for the future Administrators regarding international 
cooperation?
    Mr. Griffin. Well, sir, the way that I would characterize 
that--and that's a superlative question. And when we talk about 
critical path, we have to understand what we mean. Certainly, 
our international partners in terms of our lunar program were--
I'll use the quote on the critical path for a lunar base 
because the United States certainly wasn't going to build 
everything we needed for a human outpost on the moon, far from 
it.
    When I say that it's a good idea to keep partners off the 
critical path--and that may apply as well internally to the 
country as externally--a given piece of hardware, a given 
mission support function should probably, as best you can, be 
confined to one entity. So we were going to build the heavy 
lift rocket. Maybe the habitat would be furnished by the 
European Space Agency. Maybe a laboratory would come from 
Japan, something like that. Maybe the power system would come 
from France, which is, you know, as you know, 80 percent 
nuclear in--domestically.
    So my comments about critical path have I think in the past 
often been misinterpreted. When we're doing international 
programs, we need everybody's contribution. I don't want to 
build a car by having, you know, the tires come from one 
manufacturer and the engine from--I think you get my point.
    Mr. Loudermilk. Right. Yes. I appreciate that. You know, 
growing up during the Apollo time period, NASA and those 
astronauts were an inspiration to me. And that--my life was 
surrounded by the idea that we were exploring the unknown, that 
we were doing something that a superpower does, that we were 
taking risks and we were beating the odds of things that people 
said that could not be done. There were more reasons that we 
could not go to the moon than there were that we could. But I 
think that helped define American exceptionalism is that we set 
our mind to do it and we did it. And I think that inspiration 
set us on a path to further greatness, and I know it inspired 
me. It inspired a lot of my schoolmates.
    What can we do going forward so that our space exploration 
will have that type of impact on the generations that are 
following us? It seems--I know that there is a lack of 
inspiration, I think, in our education system because a lot of 
children are asking where are we going? What are we doing? What 
am I here for? At least during that time period of my life 
there was a destiny. We had a purpose.
    And for Colonel or Dr. Griffin, anyone, will we ever see 
that time again?
    Ms. Collins. Well, thank you for the question. I think 
that's great. And obviously, the mission we had--now, I was 
inspired by the Gemini astronauts, as well as the----
    Mr. Loudermilk. Yes.
    Ms. Collins. --Apollo astronauts. I wanted to be one of 
them as a young child, and it led me into the study of math and 
science and eventually becoming a pilot in the Air Force and it 
was----
    Mr. Loudermilk. I was Air Force as well, so thank you.
    Ms. Collins. Yes, and it was just seeing what can be done. 
I wanted to be part of it because to me it was just a great 
adventure.
    And to answer your question, though, we need to teach our 
teachers because every astronaut cannot be in every classroom.
    Mr. Loudermilk. Right.
    Ms. Collins. Now, I learned about the space program from a 
magazine. There's not enough astronauts to get into all the 
classrooms. I wish there were, but the teachers need to have 
continuing education because I think some of them are a little 
bit afraid to teach space because they think the kids might 
know more than they do. So some of them--they don't--they want 
an astronaut to be in the classroom, but otherwise, they don't 
want to talk about it, so education for the teachers so they 
can get pumped up, it doesn't have to be done by the U.S. 
Government. A lot of private entities, educational groups 
around the country teach teachers, and I think we need to do 
more of that because that'll get more young people involved not 
just in the space program but we're becoming, you know, so much 
more technical. We need kids in cyber, we need kids in 
engineering, energy, there's--it's everything. But you can tie 
it all to the space program.
    Mr. Loudermilk. That's right. I mean, and as I go back and 
look at movies such as The Right Stuff, and the one Tom Hanks 
did, the series, it--what it emphasized to me was the ingenuity 
beyond just the engineering but the thinking outside the box, 
the development of the lunar landing module, how we broke every 
other design because we needed to make it lighter. Whoever 
thought of a pilot standing up?
    But these are the types of things that we just broke the 
mold and decided we're going to do it our way, and that's the 
type of thing I think that we need to see again, something to 
inspire this next generation to move forward and take what--the 
hearing we had yesterday was the discovery of magnetic waves. 
Well, one of the questions was how is that going to be a 
practical application? Well, my sense, the guys who discovered 
it are not going to be the ones who will take it and make a 
practical application, but it's the next generation that will 
take that discovery and then match that to something.
    I applaud you for what you're doing. I still admire those 
who have the courage to break the surly bonds of Earth and go 
and explore the great unknown. Thank you.
    Mr. Babin. Thank you, Mr. Loudermilk.
    And I want to thank the witnesses. This is one of the best 
hearings I have attended since being a Member of Congress, a 
Member of this Committee.
    And I want to thank the Members for their questions, and 
the record will remain open for two weeks for an additional--
for additional written comments and written questions from any 
Members who desire to do so.
    Without any more ado, this hearing is adjourned.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
